                 AUDIT REPORT

        Audit of NRC’s iLearn Learning Management System

                      OIG-11-A-16 July 27, 2011




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  July 27, 2011



MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits



SUBJECT:                    AUDIT OF NRC’S ILEARN LEARNING MANAGEMENT
                            SYSTEM (OIG-11-A-16)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
iLearn Learning Management System.

The report presents the results of the subject audit. During an exit conference held on
July 20, 2011, the agency agreed with the findings and recommendations in this audit
report and said that no agency suggestions or comments would be provided in
connection with the report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG followup as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Kathleen Stetson, Team Leader, Financial and Administrative Audit Team,
at 415-8175.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
and Preparedness Programs, OEDO
Nader Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
Miriam L. Cohen, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
and Incident Response
William M. Dean, Regional Administrator, Region I
Victor M. McCree, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                        Audit of NRC’s iLearn Learning Management System



EXECUTIVE SUMMARY

          BACKGROUND

                 The U.S. Nuclear Regulatory Commission (NRC) implemented the iLearn
                 Learning Management System (iLearn) in April 2008 in response to the
                 E-Government Act of 2002.1 iLearn is a vehicle for providing training
                 distribution and tracking services directly to employees. It serves as a
                 central point for training activities across the agency and allows
                 employees to see all NRC-offered courses, develop a learning plan,
                 register for training, track training history, access online training, and
                 complete evaluations from their desktop.

                 Organizationally, iLearn is the responsibility of the Associate Director of
                 Human Resources Training and Development (HRTD) within the Office of
                 Human Resources (HR). Approximately 1.5 NRC Full-time Equivalent
                 (FTE) and 1 contractor employee manage iLearn.

                 NRC procured the system through a Government shared-service provider
                 on a pay-as-you-go basis, using an interagency agreement with the Office
                 of Personnel Management (OPM). The system, a commercial-off-the-
                 shelf product, is hosted by Plateau Systems. As of June 2011, the agency
                 had spent approximately $1.5 million on iLearn and plans to spend almost
                 $500,000 next year.

                 iLearn is intended to be inclusive of all courses offered at NRC. Currently,
                 the system houses 599 online courses; 492 are SkillSoft courses, 42 are
                 Harvard Business courses, and 65 are NRC-developed courses.

          PURPOSE

                 The audit objective was to determine the effectiveness of the iLearn
                 Learning Management System to support the agency's current and future
                 training needs.




1
    E-Government Act of 2002 (Public Law 107-347) approved by the President on December 17, 2002.

                                                   i
                                         Audit of NRC’s iLearn Learning Management System



RESULTS IN BRIEF

      While iLearn is capable of effectively supporting NRC’s current and future
      training needs, the Office of the Inspector General (OIG) identified the
      following issues in the management of iLearn:

      A. Mandatory fields are not always complete.
      B. NRC lacks written policies and procedures describing course manager
         duties.

      Addressing these issues will improve the effectiveness of iLearn in
      meeting the agency’s training needs.

RECOMMENDATIONS

      This report makes recommendations to improve iLearn. A list of these
      recommendations appears on page 10 of this report.

AGENCY COMMENTS

      During an exit conference held on July 20, 2011, the agency agreed with
      the findings and recommendations in this audit report and said that no
      agency suggestions or comments would be provided in connection with
      the report.




                                    ii
                                 Audit of NRC’s iLearn Learning Management System




ABBREVIATIONS AND ACRONYMS



       FTE         Full-time Equivalent

       HR          Office of Human Resources

       HRTD        Human Resources Training and Development

       iLearn      iLearn Learning Management System

       NRC         U.S. Nuclear Regulatory Commission

       O&M         Operations and Maintenance

       OIG         Office of the Inspector General

       OPM         Office of Personnel Management




                           iii
                                                            Audit of NRC’s iLearn Learning Management System



TABLE OF CONTENTS


            EXECUTIVE SUMMARY ............................................................................ i

            ABBREVIATIONS AND ACRONYMS ........................................................ iii

            I.      BACKGROUND .............................................................................. 1

            II.     PURPOSE ...................................................................................... 2

            III.    FINDINGS ....................................................................................... 3

                    A. iLEARN MANDATORY FIELDS ARE NOT
                       ALWAYS COMPLETE ............................................................... 4

                    B. NRC LACKS WRITTEN POLICIES AND
                       PROCEDURES DESCRIBING COURSE
                       MANAGER DUTIES .................................................................. 7

             IV.     OTHER MATTERS ........................................................................ 9

             V.      CONSOLIDATED LIST OF RECOMMENDATIONS .................... 10

             VI.     AGENCY COMMENTS ................................................................ 10

APPENDIX

    SCOPE AND METHODOLOGY ......................................................................... 11




                                                     iv
                                            Audit of NRC’s iLearn Learning Management System



I.   BACKGROUND

        The NRC implemented iLearn in April 2008 in response to the E-
        Government Act of 2002. iLearn is a vehicle for providing training
        distribution and tracking services directly to employees. It serves as a
        central point for training activities across the agency and allows
        employees to see all NRC-offered courses, develop a learning plan,
        register for training, track training history, access online training, and
        complete evaluations from their desktop.

        Organizationally, iLearn is the responsibility of the Associate Director of
        HRTD within HR. Approximately 1.5 NRC FTE and 1 contractor employee
        manage iLearn. In addition, approximately 22 employees serve as course
        managers for the courses in iLearn. According to HRTD staff, course
        manager duties include monitoring the list of students who use the
        “Request a Schedule” feature in iLearn and ensuring the course data in
        iLearn is accurate and complete for the courses they manage.

        NRC procured the system through a Government shared-service provider
        on a pay-as-you-go basis, using an interagency agreement with OPM.
        The system, a commercial-off-the-shelf product, is hosted by Plateau
        Systems. As of June 2011, the agency had spent approximately
        $1.5 million on iLearn and plans to spend almost $500,000 next year.
        Operation and maintenance (O&M) expense details are shown in the table
        on the following page.




                                       1
                                                            Audit of NRC’s iLearn Learning Management System




       Table 1.




      Source: HRTD – Note that contract years start on June 15 and end on June 14 of the following year.



               iLearn is intended to be inclusive of all courses offered at NRC. Currently,
               the system houses 599 online courses; 492 are SkillSoft courses, 42 are
               Harvard Business courses, and 65 are NRC-developed courses. SkillSoft
               and Harvard courses are commercial-off-the-shelf courses for which the
               NRC has purchased licenses (e.g., the Federal Budgeting Process and
               Managing Six Sigma Team Performance). The 65 NRC-developed
               courses are custom courses developed to meet NRC learning objectives
               and include titles such as Effective Communications for NRC Inspectors
               and Access Authorization and Fitness for Duty.



II.    PURPOSE

               The audit objective was to determine the effectiveness of the iLearn
               Learning Management System to support the agency's current and future
               training needs. The report appendix contains information on the audit
               scope and methodology.




                                                      2
                                                          Audit of NRC’s iLearn Learning Management System



III.    FINDINGS

                During this audit, OIG auditors noted several positive items: (1) overall
                iLearn user satisfaction has increased significantly from 59 percent in
                December 2009 to 89 percent in March 2011; (2) the agency developed a
                dashboard2 that provides management with information that is simply
                presented, easy to monitor, and indicates where action needs to be taken;
                and (3) HR staff developed a No Fear Act online training course that was
                selected by OPM to be used across Government.

                While iLearn is capable of effectively supporting NRC’s current and future
                training needs, OIG identified the following issues in the management of
                iLearn:

                A. Mandatory fields are not always complete.

                B. NRC lacks written policies and procedures describing course manager
                   duties.

                Addressing these issues will improve the effectiveness of iLearn in
                meeting the agency’s training needs.




2
  A dashboard is defined as a Web site that (1) organizes information so that it is easy to read and
interpret, (2) provides up-to-date status information on key performance indicators, and (3) presents
information visually through graphics (charts, gauges, maps, tables).

                                                     3
                                                          Audit of NRC’s iLearn Learning Management System



        A. iLearn Mandatory Fields Are Not Always Complete

                Agency guidance requires use of mandatory fields in iLearn to capture
                course prerequisites3 and general information such as course description,
                course length, and point-of-contact. However, these fields are often left
                blank. This data completeness issue occurs because management
                (1) does not enforce use of the prerequisite feature and (2) lacks a quality
                assurance program to ensure that mandatory fields are used. Without
                course prerequisite information in iLearn, students are able to register for
                courses for which they are not eligible or prepared, thereby using a
                training slot that could be used by another student who may need the
                course for timely completion of his or her qualification curriculum.
                Furthermore, incomplete iLearn data makes it difficult for users to plan
                their training effectively and could affect the accuracy of NRC’s biweekly
                reports to OPM containing training information such as training credits,
                hours, and purpose for each course completed by employees.

                Guidance Regarding Mandatory Fields

                Agency guidance addresses the use of mandatory fields in iLearn for
                required course prerequisites. In addition, iLearn course input forms detail
                the fields required to be entered when a course is added to the system.

                Prerequisite Feature

                HRTD Operating Procedure 403 states that required prerequisites must be
                identified in the description section of the iLearn catalog and enforced
                through the iLearn prerequisite feature. For example, students are
                required to complete the Westinghouse Technology course (R-304P)
                before taking the Westinghouse Advanced Technology course (R-504P).
                The iLearn prerequisite feature does not allow a student to sign up for a
                course unless the required prerequisite has been met. (If a student is
                registered for the prerequisite course, and the ending date of that course
                is before the start date of the desired course, iLearn allows the student to
                register.)




3
 In this context, prerequisites are defined as courses that are required to be completed before another
course can be taken.

                                                    4
                                    Audit of NRC’s iLearn Learning Management System




iLearn Course Input Form

iLearn course input forms detail the fields required to be entered when a
course is added to the system. There are two different input forms: one
for instructor-led training and one for online courses.

Mandatory Fields Left Blank

Despite agency guidance, mandatory information is often not included in
the iLearn course listing.

Prerequisite Feature

Although agency guidance prescribes mandatory fields, OIG identified
numerous instances where required fields were not completed. OIG
reviewed 19 technical courses identified by the agency as having required
prerequisites, and determined that all of them included the required
prerequisites in the course description; however, only 2 of the course
offerings enforced the prerequisites through the prerequisite feature.

iLearn Course Input Form

A comparison of the information in iLearn for a sample of 14 technical and
non-technical courses against the information required by the appropriate
iLearn course input forms found that all 14 courses had at least one
mandatory field (e.g., course description) that was blank and many
contained more than one blank required field. In addition, 1 of the 14
courses contained inconsistent information related to the course duration.

Management Does Not Enforce Prerequisite Feature and Lacks a
Quality Assurance Program

The data completeness issue occurs because HRTD management does
not enforce use of the prerequisite feature and lacks a quality assurance
program to ensure the feature is used, if applicable. This results in
inefficiencies in planning training and potential inaccuracies in reporting
training data to OPM.



                               5
                                   Audit of NRC’s iLearn Learning Management System




Prerequisite Feature

Management has not enforced the use of the iLearn prerequisite feature.
When the prerequisite feature is not used, students are able to register for
courses for which they are not eligible or prepared, thereby using a slot
that could be used by another student who may need the course for timely
completion of his/her qualification curriculum.

iLearn Course Input Form

Course managers in HRTD, as well as course managers in program
offices, are responsible for ensuring that iLearn course descriptor
information is complete for their respective courses, but they do not
always fulfill this function. Additionally, there is no quality assurance
program to ensure that all mandatory fields, such as course description,
are completed. Missing iLearn data makes it difficult for users to plan their
training effectively and could affect the accuracy of NRC’s reports to OPM
that contain training information. The information that OPM requires is
derived from the data contained in the mandatory fields.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Issue guidance to course managers instructing them to complete all
   mandatory fields as described on the iLearn course input form.

2. Develop and implement a quality assurance program for all data in
   iLearn to ensure mandatory fields are complete and accurate.

3. Correct incomplete mandatory fields in iLearn.




                              6
                                        Audit of NRC’s iLearn Learning Management System



B. NRC Lacks Written Policies and Procedures Describing Course Manager
   Duties

     Federal guidance directs that agencies have policies and procedures in
     place to help ensure that agency objectives are met. However, NRC lacks
     written policies and procedures describing the responsibilities of
     individuals assigned to serve as course managers for iLearn courses.
     Accordingly, course managers are not consistently fulfilling their duties.
     Without established policies and procedures to clearly communicate
     management expectations, course managers may be unaware of their
     duties or may use inconsistent and less than optimal methods to fulfill their
     duties.

     Standards for Internal Control in the Federal Government

     The Government Accountability Office’s Standards for Internal Control in
     the Federal Government states that internal control activities help ensure
     that management’s directives are carried out. Control activities are
     described as the policies, procedures, techniques, and mechanisms that
     enforce management’s directives.

     Course Managers Do Not Consistently Fulfill Duties Associated with
     iLearn

     NRC course managers do not consistently fulfill their duties associated
     with iLearn. There is a large disparity among course managers as to what
     they believe are their iLearn responsibilities. For example, some course
     managers do not monitor the “Request a Schedule” feature in iLearn. This
     feature enables a prospective student to input the date by which a course
     is needed and add a comment. OIG found several instances where
     students asked questions in the comment box and expected a response.

     Although iLearn is set up to send an e-mail notification to the course
     manager when the minimum number of students is reached, it does not
     notify the course manager when a student sends a comment or question.
     In addition, as noted previously in this report in Finding A, mandatory
     fields are often left blank because some course managers are not aware
     that they need to be completed. HRTD representatives stated that course
     managers are responsible for monitoring the list of students requesting a


                                   7
                                   Audit of NRC’s iLearn Learning Management System



schedule before the minimum is reached; however, many course
managers are unaware of this responsibility. Therefore, potential students
may not get the requested course in the timeframe needed, and they may
not get a response to their questions.

Lack of Written Policies and Procedures

Written policies and procedures describing course manager
responsibilities and management’s expectations do not exist. Without
established policies and procedures to clearly communicate
management’s expectations regarding course manager duties and
responsibilities, course managers may use inconsistent and less than
optimal methods in carrying out their duties. This could affect students’
ability to obtain needed training in a timely manner to support mission
accomplishment. Periodic training is provided to course managers by
HRTD staff; however, this training is not mandatory.

Recommendations

OIG recommends that the Executive Director for Operations:

4. Develop and implement written policies and procedures describing
   course manager duties and responsibilities.

5. Provide mandatory training to course managers specific to their iLearn
   duties and responsibilities.




                              8
                                                         Audit of NRC’s iLearn Learning Management System



IV.     Other Matters

                Although it was not the focus of our audit, based on a request from HRTD
                management, OIG looked into the matter of training activities that do not
                go through HR and program office procurement authority for these
                activities.

                NRC delegations designate HR as having sole delegated authority to
                procure training (other than SF-1824 training) in headquarters. Regions
                also have such authority to meet specific regional training needs.
                However, contrary to this authority, there have been instances of
                headquarters program offices procuring training without coordinating with
                HRTD.

                HRTD management has presented this issue to the Human Capital
                Council5 as well as to the agency Program Management, Policy
                Development and Analysis staff. Additionally, as these instances surface,
                HRTD is reaching out to the program offices, reminding them of the
                delegation authority, and encouraging them to coordinate with HRTD on
                future acquisitions.




4
  SF-182 is the form NRC employees use to request training outside of NRC.
5
  The Human Capital Council was established by the NRC Executive Director for Operations in concert
with HR in July 2006. The purpose of the Human Capital Council is to provide an agency-level forum for
the formulation of strategies to address human capital challenges, share best practices, and develop an
integrated approach to address human capital issues.



                                                   9
                                             Audit of NRC’s iLearn Learning Management System



V.    CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Issue guidance to course managers instructing them to complete all
             mandatory fields as described on the iLearn course input form.

          2. Develop and implement a quality assurance program for all data in
             iLearn to ensure mandatory fields are complete and accurate.

          3. Correct incomplete mandatory fields in iLearn.

          4. Develop and implement written policies and procedures describing
             course manager duties and responsibilities.

          5. Provide mandatory training to course managers specific to their iLearn
             duties and responsibilities.




VI.   AGENCY COMMENTS

          During an exit conference held on July 20, 2011, the agency agreed with the
          findings and recommendations in this audit report and said that no agency
          suggestions or comments would be provided in connection with the report.




                                        10
                                        Audit of NRC’s iLearn Learning Management System


                                                                              Appendix
SCOPE AND METHODOLOGY

     The audit objective was to determine the effectiveness of the iLearn
     Learning Management System to support the agency's current and future
     training needs. The audit focused on reviewing the internal controls over
     iLearn through an examination of documents and by conducting
     interviews. OIG also performed benchmarking with other agencies.

     OIG reviewed relevant Federal regulations, including Office of
     Management and Budget Circular A-123, Management’s Responsibility for
     Internal Control; the Government Accountability Office’s Standards for
     Internal Control in the Federal Government; and the U.S. Code of Federal
     Regulations, Title 5, Part 410, Training. OIG reviewed agency guidance,
     including management directives, operating procedures, and HRTD’s
     strategic plan. In addition, OIG contacted the Government Accountability
     Office and the Library of Congress to obtain best practices regarding their
     respective learning management systems.

     OIG interviewed HR management officials to obtain their insights into the
     implementation and oversight of iLearn. Additional interviews were
     conducted with course managers and administrative staff from
     headquarters, Region IV, and the Technical Training Center.

     OIG reviewed use of the prerequisite feature for 19 technical courses
     identified by the agency as having required prerequisites. OIG also
     reviewed use of the required fields as indicated on the iLearn course input
     form for 14 technical and non-technical courses in iLearn.

     We conducted this performance audit at NRC headquarters from
     September 2010 through April 2011 in accordance with generally
     accepted Government auditing standards. Those standards require that
     the audit is planned and performed with the objective of obtaining
     sufficient, appropriate evidence to provide a reasonable basis for any
     findings and conclusions based on the stated audit objective. OIG
     believes that the evidence obtained provides a reasonable basis for the
     report findings and conclusions based on the audit objective. Internal
     controls related to the audit objective were reviewed and analyzed.
     Throughout the audit, auditors were aware of the possibility or existence of


                                  11
                                 Audit of NRC’s iLearn Learning Management System



fraud, waste, or misuse in the program. The audit work was conducted by
Kathleen Stetson, Team Leader; Terri Cooper, Audit Manager;
Kevin Nietmann, Senior Technical Advisor; and John Tornabane,
Management Analyst.




                            12
